             January 21, 2004

             MEMORANDUM
             FOR:           USAID Mission to Ukraine, Belarus and Moldova, Mission
                            Director, Christopher Crowley

             FROM:          Acting Regional Inspector General/Budapest, Jacqueline Bell
                                                                                   /s/
             SUBJECT:       Follow-up of Recommendation Nos. 1 and 7 of Audit Report
                            No. B-121-01-006-P, “Audit of USAID/Ukraine’s Activity
                            Monitoring System”, issued on June 28, 2001.
                            (Report No. B-121-04-001-S)

             This memorandum is our report on the follow-up of the June 2001 report
             recommendations. Although this is not an audit report, this report contains
             information for your consideration and action. I appreciate the cooperation and
             courtesy extended to my staff during the recommendation follow-up.


Background   Our June 2001 audit report determined that the Mission needed to strengthen
             certain elements of its activity monitoring system. The audit found, for example,
             that the Mission needed to improve its Performance Monitoring Plan and
             implement a system to evaluate contractor performance. To address the
             identified problems, the audit report contained seven recommendations including
             the following:

                    Recommendation No. 1: We recommend that USAID/Ukraine
                    revise its Performance Monitoring Plan to include detailed indicator
                    definitions, data sources, the method and schedule of data collection,
                    and the assignment of responsibility for data collection, as required
                    by the Automated Directives System.

                    Recommendation No. 7: We recommend that the USAID/Ukraine
                    Regional Contracts Officer implement a system to evaluate
                    contractor performance in accordance with the requirements set forth


                                                                                               1
                    in the Federal Acquisition Regulations and Automated Directives
                    System 302.

             In comments to our report, USAID/Ukraine stated that corrections had been
             made to Performance Monitoring Plan (PMP) indicator definitions and data
             sources. Furthermore, the Mission stated that (1) the Regional Contracts Officer
             had begun training Mission staff to use the contractor performance system, (2)
             awards requiring performance evaluations would be completed by June 2001,
             and (3) beyond this date, performance evaluations would be scheduled on award
             anniversary or completion dates.

             In accordance with the Office of Management and Budget’s Circular
             No. A-50 and Office of Inspector General audit policy, we selected
             Recommendations No. 1 and 7 for follow-up because they specifically
             dealt with activity monitoring and performance evaluation. The
             purpose of our recommendation follow-up was to ensure that
             management actions have corrected or are correcting the identified
             deficiencies.



Discussion   The Mission has taken action to eliminate the problems identified in the June
             2001 audit report regarding its Performance Monitoring Plan (PMP). However,
             the Mission’s effort to implement a system to evaluate contractor performance
             needs further improvement.

             Management Actions Have Improved the
             Performance Monitoring Plan

             In its written comments, the Mission stated it continually reviews and revises its
             PMP indicators, and that the identified problems with indicator definitions and
             data sources had been corrected. Furthermore, the Mission stated that the PMP
             had been amended to include the method and schedule of data collection, and the
             assignment of responsibility for data collection in accordance with the
             Automated Directives System (ADS).

             We reviewed the 2002 and 2003 PMPs to determine if the plans included
             detailed indicator definitions, data sources, the method and schedule of data
             collection, and the assignment of responsibility for data collection. While the
             2002 PMP had detailed indicator definitions for most Strategic Objectives and
             data sources, the method and schedule of data collection were often not
             defined.

             In April and October 2002, IBM Business Consulting Services provided
             training and technical assistance to Mission staff on the preparation of the
             PMP, with special emphasis on performance indicators. The result was


                                                                                              2
                           Performance Indicator Review Sheets (PIRS) for each indicator which stated,
                           among other things, detailed indicator definitions, data sources, the method
                           and schedule of data collection, and the assignment of responsibility for data
                           collection. These improvements were incorporated into the 2003 PMP
                           process for all indicators.

                           Although the 2002 PMP did not fully address all the problems identified in the
                           audit report, the Mission’s subsequent effort in conjunction with IBM allowed
                           the 2003 plan to meet all ADS requirements. The Mission’s ongoing
                           development of PIRS for new indicators will allow it to continue to strengthen
                           its PMP.

                           USAID/Ukraine’s Contractor Performance Evaluation
                           Program Has Not Been Fully Implemented

                           In response to the recommendation that a contractor performance evaluation
                           system be implemented, the Mission obtained access to the National Institute of
                           Health’s (NIH) Contractor Performance System (CPS)1and trained one of its
                           regional contracting officers to use the system. Mission officials stated that
                           additional actions would be taken to address the recommendation. These actions
                           included:

                               •    Completion of contractor performance evaluations for 12 task orders and
                                    contracts identified as requiring evaluations for 2001.

                               •    Training of all appropriate Mission staff required to use the performance
                                    evaluation system.

                               •    Evaluation reporting beyond June 2001 for all contracts and task orders,
                                    scheduled as anniversary or completion dates occur.

                           If fully implemented, these measures would ensure compliance with ADS and
                           Federal Acquisition Regulation (FAR) requirements in the future. However,
                           during our October 2003 review, the Mission had not completed all the proposed
                           management actions. Specifically,

                               •    While Mission staff stated they had completed all the 2001 performance
                                    evaluations, contractor performance evaluations were not completed for
                                    2002 and, due to staff shortages, will not be finished.



1
    In September 1998, USAID subscribed to the NIH CPS, which captures contractor performance evaluation reports for
    USAID and other federal agencies. This system provides for more routine and comprehensive compiling and
    collecting of evaluation reports and also makes these reports more readily available to contracting personnel
    worldwide.



                                                                                                                       3
                •   Not all Mission staff required to use the NIH system had access to or
                    were familiar with system operations.

                •   Contracts and task orders were not being scheduled for evaluation on the
                    anniversary or completion dates.

             As a result, the Mission had no system or procedures in place that would ensure
             continued compliance with ADS and FAR regulations regarding contractor
             performance reporting.

             At the time of the follow-up review, the Mission had arranged a temporary duty
             assignment for an additional contracting officer to assist with contractor
             performance reports, and the Mission was in the process of completing all 2003
             evaluations. The Regional Contracting Officer had also sent a notice to the
             Mission’s Cognizant Technical Officers to remind them to complete their
             portion of the evaluation reports and reemphasize the importance of this work.
             During the follow-up review, the Mission agreed to develop and implement a
             plan of action that would ensure continued compliance with contractor
             performance reporting requirements by March 31, 2004.



Conclusion   USAID Mission for Ukraine, Belarus and Moldova has initiated appropriate
             efforts to improve its Performance Monitoring Plan. However, the Mission
             needs to take additional steps to implement a contractor evaluation system that
             meets ADS and FAR requirements.

             Although the Mission has not yet developed a contractor performance
             evaluation system that fully meets ADS and FAR requirements, the Mission
             has taken steps to improve its reporting. Contractor evaluations for FY 2003
             are currently being completed, and the Mission is developing a plan to ensure
             continued compliance with reporting requirements. Therefore, we do not
             believe it necessary to re-open the recommendation at this time. However,
             RIG/Budapest will seek periodic updates from the Mission to ensure that these
             reporting efforts are fully implemented and sustained.




                                                                                               4
